Certification of Word Count
No.
In the

$uprente (In ut of thr rtitth *atm
ALVIN E. MEDINA, PETITIONER
v.
FEDERAL AVIATION ADMINISTRATION

PETITION FOR WRIT OF CERTIORARI
As required by Supreme Court Rule 33.1(h), I certify that the
document contains 1256 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on 84/2020

D CURRY
CURRY & TAYLOR LLC
1726 NEVADA AVE NE
ST. PETERSBURG, FL 33703
(202) 350-9073

